                                                                          AUDIT




INDEPENDENT ACCOUNTANTS’ REPORT
Independent Accountants’ Report on Agreed-Upon Procedures for the U.S.
Department of the Interior, U.S. Department of Education, U.S. Department of
Transportation, National Aeronautics and Space Administration, Nuclear
Regulatory Commission, National Science Foundation, and Social Security
Administration




Report No.: X-IN-MOA-0006-2010                                     September 2010
               OFFICE OF
               INSPECTOR GENERAL
               U.S.DEPARTMENT OFTHE INTERIOR




                                                                                   SEP 2 8 2010
The Honorable Patrick E. McFarland
Inspector General
Office of Personnel Management
1900 E Street, NW, Room 6400
Washington, D.C. 20415
Attention: W.W. Scott, Jr.

Re: X-IN-MOA-0006-2010

Dear Mr. McFarland:

        Enclosed is the Independent Accountants' Report on Applying Agreed-Upon Procedures
for the U.S. Department ofthe Interior, U.S. Department of Education, U.S. Department of
Transportation, National Aeronautics and Space Administration, Nuclear Regulatory Commission,
National Science Foundation, and Social Security Administration as required by Office of
Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements/or Federal Financial
Statements.

         The report was prepared by KPMG LLP under contract with the Department ofthe
Interior. OMB Bulletin No. 07-04 requires that the Agreed-Upon Procedures be conducted in
accordance with the attestation standards established by the American Institute of Certified Public
Accountants.

       KPMG is responsible for the report and for the conclusions expressed in the report.

        If you have any questions concerning this matter, please contact me at 202-208-5745 or
staff may contact Mr. Robert Romanyshyn, Deputy Assistant Inspector General for Financial
Audits at 202-208-5603.


                                                   Sincerely,



                                                  Mary L. Kendall
                                                  Acting Inspector General

Enclosure




                                Office of Inspector General   I Washington,   DC
                                                                                       ENCLOSURE

                              KPMG LLP
                              Suite 2700
                              707 Seventeenth Street
                              Denver, CO 80202-3499




                                    Independent Accountants’ Report
                                  on Applying Agreed-Upon Procedures


The Inspector General
United States Department of the Interior:

We have performed the procedures enumerated in Exhibit I, which were agreed to by the Inspector General
and the Chief Financial Officer of the United States Office of Personnel Management (OPM), solely to
assist OPM in evaluating the reliability of the employee withholdings, employer contributions and
headcounts reported in the United States Department of the Interior (DOI), United States Department of
Education (ED), United States Department of Transportation (DOT), National Aeronautics and Space
Administration (NASA), National Science Foundation (NSF), Nuclear Regulatory Commission (NRC),
and Social Security Administration (SSA) Reports of Withholdings and Contributions for Retirement,
Health Benefits, and Life Insurance for the payroll periods in the 12-month period ended August 31, 2010
and the Semiannual Headcount Reports for September 2009 and March 2010. DOI, ED, DOT, NASA,
NSF, NRC, and SSA are responsible for reporting withholdings and contributions for retirement, health
benefits, and life insurance, and for related semiannual headcount reporting.

This agreed-upon procedures engagement was conducted in accordance with the attestation standards
established by the American Institute of Certified Public Accountants and the standards applicable to
attestation engagements contained in Government Auditing Standards issued by the Comptroller General of
the United States. The sufficiency of these procedures is solely the responsibility of the Inspector General
and the Chief Financial Officer of OPM. Consequently, we make no representation regarding the
sufficiency of the procedures described in Exhibit I, either for the purpose for which this report has been
requested or for any other purpose. The procedures we performed and the associated findings are presented
in Exhibit I.

We were not engaged to, and did not, conduct an examination, the objective of which would be the
expression of an opinion on the employee withholdings, employer contributions, and headcounts reported
in the DOI, ED, DOT, NASA, NSF, NRC, and SSA Reports of Withholdings and Contributions for
Retirement, Health Benefits, and Life Insurance, for the payroll periods in the 12-month period ended
August 31, 2010 and the Semiannual Headcount Reports for September 2009 and March 2010.
Accordingly, we do not express such an opinion. Had we performed additional procedures, other matters
might have come to our attention that would have been reported to you.




                              KPMG LLP is a Delaware limited liability partnership,
                              the U.S. member firm of KPMG International Cooperative
                              (“KPMG International”), a Swiss entity.
This report is intended solely for the information and use of the Inspector General and the Chief Financial
Officer of OPM and is not intended to be and should not be used by anyone other than these specified
parties.




September 10, 2010




                                                 2
                                                                                                   Exhibit I




                          Attachment to the Independent Accountants’ Report
                                 on Applying Agreed-Upon Procedures
                     Submitted to the United States Office of Personnel Management
 For the United States Department of the Interior, United States Department of Education, United States
    Department of Transportation, National Aeronautics and Space Administration, National Science
           Foundation, Nuclear Regulatory Commission, and Social Security Administration


Procedures and Findings
Procedure A
A.   Obtain the United States Department of the Interior (DOI), United States Department of Education (ED),
     United States Department of Transportation (DOT), National Aeronautics and Space Administration
     (NASA), National Science Foundation (NSF), Nuclear Regulatory Commission (NRC), and Social
     Securities Administration (SSA) (Agencies) September 2009 and March 2010 Semiannual Headcount
     Reports submitted to the U.S. Office of Personnel Management (OPM) and a summary of Retirement and
     Insurance Transfer System (RITS) submissions for September 2009 and for the period October 1, 2009
     through August 31, 2010. For the Retirement, Health Benefits, and Life Insurance Withholdings and
     Contributions, select the Agency’s RITS submissions for August 29, 2009 and February 27, 2010 and
     select one additional RITS submission for the period October 1, 2009 through August 31, 2010. Two of the
     three pay periods selected will coincide with the September 2009 and March 2010 Semiannual Headcount
     Reports (August 29, 2009 and February 27, 2010), and the additional payroll period selected ended
     April 10, 2010. Obtain Agency Federal Personnel Payroll System (FPPS) Payroll Employee Lists
     (employee lists), and Payroll Summary Report (payroll information) for the periods covered by the RITS
     submissions selected.

Finding A
We obtained the Agencies September 2009 and March 2010 Semiannual Headcount Reports submitted to OPM
and a summary of RITS submissions for September 2009 and for the period October 1, 2009 through August 31,
2010. We haphazardly selected the following three RITS submissions from the summary of RITS submissions,
two of which coincide with September 2009 and March 2010 Semiannual Headcount Reports (August 29, 2009
and February 27, 2010), and the additional payroll period selected ended April 10, 2010. We obtained the
Agencies’ employee lists and payroll information for the periods associated with the following RITS
submissions.




                                                    3
                                                                                                              Exhibit I




    Pay period       Payroll period
     number             ended                                                Selections1
    200918        August 29, 2009           Bureau of Ocean Energy Management, Regulation and Enforcement
                                            formerly known as the Minerals Management Service (DOI), Indian
                                            Affairs (DOI), Bureau of Reclamation (DOI), Office of Inspector
                                            General (DOI), ED, Federal Aviation Administration (DOT), Federal
                                            Highway Administration (DOT), Federal Railroad Administration
                                            (DOT), Federal Transit Administration (DOT), Kennedy Space Center
                                            (NASA), Johnson Space Center (NASA), Stennis Space Center (NASA),
                                            Marshall Space Center (NASA), NSF, NRC, and SSA

    201005        February 27, 2010         Office of Surface Mining, Reclamation and Enforcement (DOI), Office
                                            of the Secretary of the Interior (DOI), United States Fish and Wildlife
                                            Service (DOI), ED, National Highway Traffic Safety Administration
                                            (DOT), Office of Inspector General (DOT), United States Maritime
                                            Administration (DOT), Federal Motor Carrier Safety Administration
                                            (DOT), Glenn Research Center (NASA), Ames Research Center
                                            (NASA), Headquarters (NASA), NSF, NRC, and SSA

    201008        April 10, 2010            Bureau of Land Management (DOI), National Park Service (DOI),
                                            United States Geological Survey (DOI), Office of Special Trustee for
                                            American Indians (DOI), ED, Pipeline Hazardous Materials Safety
                                            Administration (DOT), Office of the Secretary of Transportation (DOT),
                                            Research and Innovative Technology Administration (DOT), Saint
                                            Lawrence Seaway Development Corporation (DOT), Surface
                                            Transportation Board (DOT), Goddard Space Center (NASA), Dryden
                                            Flight Research Center (NASA), Langley Research Center (NASA),
                                            NSF, NRC, and SSA

Procedure 1
1.     Compare RITS submission data to the payroll information by performing the following procedures (Note:
       For cross-servicing agencies, if the internal controls are the same for all agencies serviced, it is only
       necessary to perform this procedure for one agency.) As DOI-NBC, the Agencies’ cross-servicing agency,
       utilizes the same internal controls for all agencies serviced, perform this procedure for only NSF:

       1.a.   Recalculate the mathematical accuracy of the payroll information selected in procedure A. (that is,
              calculate the total of the amounts as reported on the FPPS Payroll Summary Reports, and compare
              the results of the calculated amounts to the corresponding amounts reported on the FPPS Payroll
              Summary Reports).



1
  DOI, DOT, and NASA prepare RITS submissions for each bureau within their agency each payroll period and combine all
respective bureaus together prior to submission to OPM. We selected bureaus within each agency for each payroll period so
each bureau would be tested in one of the payroll periods selected.

                                                           4
                                                                                                      Exhibit I




      1.b. Recalculate the mathematical accuracy of each RITS submission for the payroll information selected
           in procedure A. (that is, calculate the total of the amounts as reported on the RITS submissions, and
           compare the results of the calculated amounts to the corresponding amounts reported on the RITS
           submissions).

      1.c.    Compare the employee withholding information at the aggregate level for Retirement, Health
              Benefits, and Life Insurance (as adjusted for reconciling items) shown on the payroll information
              obtained in procedure A. to the related amounts shown on the RITS submission for the
              corresponding payroll periods noted.

      1.d. Report any differences resulting from procedure 1.c. for Retirement, Health Benefits, and Life
           Insurance (categories) that are over one-percent of the aggregate amount reported for each of the
           three categories, and obtain management’s contact information (that is, a management official’s
           name, telephone number, and e-mail address) and management’s explanation for the differences
           above the one-percent threshold.

Finding 1
We calculated the total of the amounts on the FPPS Payroll Summary Reports and compared the results of the
calculated amounts to the corresponding amounts reported on the FPPS Payroll Summary Reports. We identified
differences between the calculated total amounts on the FPPS Payroll Summary Reports and the actual total
amounts on the FPPS Payroll Summary Reports that exceeded the one-percent threshold, which are presented in
Schedule A. Refer to Attachment A received from management providing reasons for the differences. No
additional procedures were performed with respect to management’s representations as to the reasons for the
differences.

We calculated the total of the amounts as reported on the RITS submissions and compared the results of the
calculated amounts to the corresponding amounts reported on the RITS submissions. We identified differences
between the calculated amounts on the RITS submission and the actual amounts on the RITS submission that
exceeded the one-percent threshold, which are presented in Schedule B. Refer to Attachment A from
management providing reasons for the differences. No additional procedures were performed with respect to
management’s representations as to the reasons for the differences.

We compared the employee withholding at the aggregate level for Retirement, Health Benefits, and Life
Insurance (as adjusted for reconciling items) shown on the payroll information to the related amounts shown on
the RITS submissions for the payroll periods noted in finding A above. We found such amounts to be below the
threshold.

Procedure 2
2.    Calculate the employee withholdings and employer contributions for Retirement, Health Benefits, and Life
      Insurance for a sample of individuals (that is, employees) as follows:

      2.a.    Randomly select a total of 25 individuals for each of the following agencies: DOI, ED, DOT, NASA,
              NSF, NRC, and SSA and who were on the payroll system for all three of the RITS submissions
              selected above that meet all the following criteria:

                  covered by the Civil Service Retirement System (CSRS) or the Federal Employees Retirement
                   System (FERS);
                                                       5
                                                                                                 Exhibit I




           enrolled in the Federal Employees Health Benefits Program;
           covered by Basic Life Insurance; and
           covered by at least one Federal Employees’ Group Life Insurance (FEGLI) optional coverage
            (Option A, B, or C).

2.b. Obtain the following documents, either in electronic or hard copy format, from the Official
     Personnel File (OPF) for each individual selected in procedure 2.a. Hard copies can be originals or
     certified copies.

           all Notifications of Personnel Actions (SF-50) covering the pay periods in the RITS
            submissions chosen;
           the Health Benefits Election Form (SF-2809) covering the pay periods in the RITS
            submissions chosen or, if applicable, obtain a report (via the agency’s personnel office) from
            the agency’s automated system that allows participants to change benefits, (e.g., Employee
            Express) for any Health Benefits transactions in that system for the individuals selected in
            procedure 2.a. (note: a new SF-2809 is needed only if an employee is changing health benefit
            plans, therefore, the form could be many years old); and
               For Health Benefits, compare the date of transaction with the date on the certified copy of
                the SF-2809 or a report from the agency’s automated system (e.g., Employee Express)
                obtained above to identify whether the health benefit information to be used in the
                procedure 2.f. covers the pay periods in the RITS submissions chosen.

           the Life Insurance Election Form (SF-2817) covering the pay periods in the RITS submission
            chosen (note: a new SF-2817 is needed only if an employee is changing life insurance
            coverage, therefore, the form could be many years old).

2.c.   For each individual selected in procedure 2.a., compare the base salary used for payroll purposes
       (upon which withholdings and contributions generally are based) as noted on the employee’s Leave
       and Earnings Statement (LES) to the base salary reflected on the employee’s respective SF-50.
       Report any differences resulting from this procedure and obtain management’s explanation of the
       differences.

2.d. For Retirement for each individual selected in procedure 2.a., compare the retirement plan code on
     the employee’s respective SF-50 to the plan code used in the payroll system as noted on the
     employee’s LES. Report any differences resulting from this procedure and obtain management’s
     explanation of the differences.

2.e.   For each individual selected in procedure 2.a., calculate the retirement employee withholding and
       employer contribution for the plan code from the employee’s SF-50, by multiplying the base salary
       from the employee’s SF-50 by the official withholding and contribution rates required by law.
       Compare the calculated retirement employee withholding and employer contribution amounts to the
       actual amounts withheld and contributed for the retirement plan as noted on the employee’s LES.
       Report any differences resulting from this procedure and obtain management’s explanation of the
       differences.


                                                6
                                                                                                   Exhibit I




2.f.   For Health Benefits for each individual selected in procedure 2.a., compare the employee health
       benefit withholdings and employer health benefit contributions from the LES to the official
       subscription rates issued by OPM for the plan and option elected by the employee, as documented by
       a Health Benefits Election Form (SF-2809) in the employee’s OPF or a report from the Agencies’
       automated system that allows the participant to change benefits (e.g., Employee Express). The
       Health      Benefits       rates   can       be      found       on      OPM’s       website     at
       http://www.opm.gov/insure/health/rates/index.asp. Report any differences resulting from this
       procedure and obtain management’s explanation of the differences.

2.g. For Basic Life Insurance for each individual selected in procedure 2.a., inspect the Life Insurance
     Election Form (SF-2817) documented in the employee’s OPF and note whether the employee elected
     Basic Life Insurance. Report any differences in which the election does not agree to the LES
     resulting from this procedure and obtain management’s explanation of the differences.

2.h. For each individual selected in procedure 2.a., calculate the employee withholding and employer
     contribution amounts for Basic Life Insurance using the following:

            For employee withholdings: Round the employee’s annual base salary from the SF-50 up to
             the nearest thousand dollars and add $2,000. Divide this total by 1,000 and multiply by the rate
             required by law. The Life Insurance rates can be found on OPM’s website at:
             http://www.opm.gov/insure/life/rates/em_rates.asp.
            For employer contributions: Divide the employee withholdings calculated above by two.

            Compare the calculated employee withholding and employer contribution amounts to the
            actual amounts withheld and contributed as noted on the employee’s LES for Basic Life
            Insurance. Report any differences resulting from this procedure and obtain management’s
            explanation of the differences.

2.i.   For Optional Life Insurance coverage for each individual selected in procedure 2.a., compare the
       optional life insurance coverage elected as documented on the SF-2817 in the employee’s OPF to the
       optional coverage documented in the payroll system as noted on the employee’s LES. Report any
       differences resulting from this procedure and obtain management’s explanation of the differences.

2.j.   For each individual selected in procedure 2.a., calculate the employee withholding amounts for
       optional life insurance using the following:

            For Option A: Inspect the SF-50 to obtain the employee’s date of birth in order to determine
             his or her age. Locate the employee’s age group using the age groups provided for Option A in
             the OPM FEGLI Program Booklet. The withholding amount to be used is the rate listed in the
             FEGLI Program Booklet for that age group. Compare the calculated employee withholding
             amount based on the FEGLI Program Booklet to the amount withheld for Option A Life
             Insurance as noted on the employee’s LES. Report any differences resulting from this
             procedure and obtain management’s explanation of the differences.
            For Option B: Inspect the SF-2817 to obtain the number of multiples chosen for Option B.
             Inspect the SF-50 to obtain the employee’s date of birth in order to determine his or her age.
             Locate the employee’s age group using the age groups provided for Option B in the OPM

                                                  7
                                                                                                        Exhibit I




                  FEGLI Program Booklet. Round the employee’s annual rate of basic pay from the SF-50 up to
                  the next 1,000, divide it by 1,000, and multiply it by the FEGLI rate for the respective age
                  group from the FEGLI Program Booklet. Multiply this result by the number of multiples
                  chosen for Option B Life Insurance shown on the SF-2817. Compare the calculated amount to
                  the actual amount withheld as noted on the employee’s LES for Option B Life Insurance.
                  Report any differences resulting from this procedure and obtain management’s explanation of
                  the differences.
                 For Option C: Inspect the SF-2817 to obtain the number of multiples chosen for Option C.
                  Inspect the SF-50 to obtain the employee’s date of birth in order to determine his or her age.
                  Locate the employee’s age group using the age groups provided for Option C in the FEGLI
                  Program Booklet. Multiply the rate for the age group from the FEGLI Program Booklet by the
                  number of multiples chosen for Option C Life Insurance shown on the SF-2817. Compare the
                  calculated amount to the amount withheld as noted on the employee’s LES for Option C Life
                  Insurance. Report any differences resulting from this procedure and obtain management’s
                  explanation of the differences.

Finding 2
We randomly selected a total of 25 employees (presented in the accompanying Schedule C for DOI, Schedule D
for ED, Schedule E for DOT, Schedule F for NASA, Schedule G for NRC, Schedule H for NSF, and Schedule I
for SSA) from the payroll information related to the RITS submissions noted in finding 1 that met all of the
criteria noted in procedure 2.a. above. For each employee listed in Schedules C, D, E, F, G, H, and I, we obtained
the originals or certified copies of the documents as referenced in procedure 2.b. above.

We compared the date of the transactions with the date on the certified copy of the SF-2809 obtained from the
OPF or, if applicable, the Agencies’ Employee Express reports, and noted that the health benefit information
used in procedure 2.f. covered the pay periods in the RITS submissions selected in procedure A. No exceptions
were found as a result of applying the procedure.

For each employee listed in Schedules C, D, E, F, G, H, and I:

     We compared the base salary used for payroll purposes (upon which withholdings and contributions
      generally are based) as noted on the employee’s LES to the base salary reflected on the employee’s
      respective SF-50 obtained from the employee’s OPF as indicated in procedure 2.c. We identified
      differences between the base salary as noted on the employee’s LES as compared to the employee’s
      respective SF-50, which are presented in Schedule J. Refer to Attachment B received from management
      providing reasons for the differences. No additional procedures were performed with respect to
      managements’ representations as to the reasons for the differences.
     We compared the retirement plan code on the employee’s respective SF-50 to the plan code used in the
      payroll system as noted on the employee’s LES as indicated in procedure 2.d. We found such information
      to be in agreement.
     We calculated the retirement employee withholdings and employer contributions as indicated in procedure
      2.e. above and compared the calculated retirement employee withholdings and employer contribution
      amounts to the actual retirement employee withholding and employer contribution amounts as noted on the
      employee’s LES. We identified differences between the calculated retirement employee withholding and
      employer contributions and the actual retirement employee withholding and employer contribution
                                                       8
                                                                                                    Exhibit I




    amounts as noted on the employee’s LES, which are presented in Schedules K and L. Refer to Attachment
    B received from management providing reasons for the differences. No additional procedures were
    performed with respect to managements’ representations as to the reasons for the differences.
   We compared the health benefits rates for the employee withholdings and employer contributions from the
    LES to the official subscription rates issued by OPM for the plan and option elected by the employee, as
    documented by a Health Benefits Election Form (SF-2809) obtained from the employee’s OPF or the
    Agency’s Employee Express report as indicated in procedure 2.f. We identified differences between the
    health benefit rates for the employee withholdings and employer contributions from the LES to the official
    subscription rates issued by OPM, which are presented in Schedules M and N. Refer to Attachment B
    received from management providing reasons for the differences. No additional procedures were
    performed with respect to managements’ representations as to the reasons for the differences.
   We inspected the Life Insurance Election Form (SF-2817) obtained from the employee’s OPF for the basic
    life insurance election, and noted that each of the employees elected basic life insurance as indicated in
    procedure 2.g. above and compared the life insurance election per the employee’s SF-2817 and the election
    status per the LES. We found such information to be in agreement.
   We calculated the employee withholding and employer contribution amounts for basic life insurance as
    indicated in procedure 2.h. above and compared the calculated amounts to the actual employee withholding
    and employer contribution amounts as noted on the employee’s LES for basic life insurance. We found
    such information to be in agreement.
   We compared the optional life insurance election on the SF-2817 obtained from the employee’s OPF to the
    optional life insurance coverage as noted on the employee’s LES as indicated in procedure 2.i. above and
    compared the optional life insurance election per the employee’s SF-2817 and the election status per the
    LES. We found such information to be in agreement.
   We calculated the employee withholding amount for Option A Life Insurance as indicated in procedure 2.j.
    above and compared the calculated employee withholding amount based on the FEGLI Program Booklet to
    the employee withholding amount as noted on the employee’s LES for Option A Life Insurance. We
    identified differences between the calculated employee withholding amount for Option A Life Insurance
    and the employee withholding amount as noted on the employee’s LES, which are presented in Schedule
    O. Refer to Attachment C received from management providing reasons for the differences. No additional
    procedures were performed with respect to managements’ representations as to the reasons for the
    differences.
   We calculated the employee withholding amount for Option B Life Insurance as indicated in procedure 2.j.
    above and compared the calculated employee withholding amount to the actual employee withholding
    amount as noted on the employee’s LES for Option B Life Insurance. We identified differences between
    the calculated employee withholding amount for Option B Life Insurance and the employee withholding
    amount as noted on the employee’s LES, which are presented in Schedule O. Refer to Attachment C
    received from management providing reasons for the differences. No additional procedures were
    performed with respect to managements’ representations as to the reasons for the differences.
   We calculated the employee withholding amounts for Option C Life Insurance as indicated in procedure
    2.j. above and compared the calculated employee withholding amount to the actual employee withholding
    amount as noted on the employee’s LES for Option C Life Insurance. We identified differences between
    the calculated employee withholding amount for Option C Life Insurance and the employee withholding

                                                    9
                                                                                                         Exhibit I




     amount as noted on the employee’s LES, which are presented in Schedule O. Refer to Attachment C
     received from management providing reasons for the differences. No additional procedures were
     performed with respect to managements’ representations as to the reasons for the differences.
Procedure 3
3.   Randomly select a total of 10 employees who have no Health Benefits withholdings for each of the
     following agencies: DOI, ED, DOT, NASA, NSF, NRC, and SSA, from the payroll information
     corresponding to the three RITS submissions (the submissions noted in procedure A.) and perform the
     following for each employee selected:

     3.a.     Obtain the SF-2809s covering the pay periods in the RITS submissions chosen, either in electronic
              or hard copy format, from the selected employee’s OPF or, if applicable, obtain a report (via the
              agency personnel office) from the Agency’s automated system that allows participants to change
              benefits (e.g., Employee Express) for any Health Benefits transactions in that system for the
              employees selected. Hard copies can be originals or certified copies. Inspect the documentation (that
              is, SF-2809 or a report from the Agency’s automated system that allows participants to change
              benefits) to identify whether Health Benefits coverage was not elected. This can be identified in the
              following ways:

                   absence of an SF-2809 in the OPF and no election of coverage made through the Agency’s
                    automated system that allows participants to change benefits (e.g., Employee Express);
                   an SF-2809 in the OPF with Section E checked (indicating cancellation of coverage) and no
                    later election of coverage through the Agency’s automated system that allows participants to
                    change benefits (e.g., Employee Express); or
                   cancellation of coverage through the Agency’s automated system that allows participants to
                    change benefits (e.g., Employee Express), and no later election of coverage with an SF-2809.

     3.b. Compare the result in procedure 3.a. to the RITS submissions. Report any differences resulting from
          this procedure and obtain management’s explanation of the differences.

Finding 3
We randomly selected 10 employees (presented in the accompanying Schedule P for DOI, Schedule Q for ED,
Schedule R for DOT, Schedule S for NASA, Schedule T for NSF, Schedule U for NRC, and Schedule V for
SSA) who had no health benefits withholdings from the payroll information corresponding to the three RITS
submissions.

For each employee listed in Schedules P, Q, R, S, T, U, and V, we obtained the respective SF-2809s or the
agency’s Employee Express reports, covering the pay periods noted in procedure A., from the employees’ OPF,
and inspected the SF-2809s or reports noting that there was no health benefit coverage election. We compared
the no health benefits coverage election status from the LES to the information on the RITS submissions
obtained in procedure A. We found such information to be in agreement.




                                                        10
                                                                                                        Exhibit I




Procedure 4

4.    Randomly select a total of 10 employees who have no Life Insurance withholdings for each of the
      following agencies: DOI, ED, DOT, NASA, NSF, NRC, and SSA from the payroll information
      corresponding to the three RITS submissions (the submissions noted in procedure A.) and perform the
      following for each employee selected:

      4.a.    Obtain the SF-2817s covering the pay periods in the RITS submissions chosen, either in electronic
              or hard copy format, from the selected employee’s OPF. Hard copies can be originals or certified
              copies. Inspect the SF-2817 to identify whether the employee waived or canceled Basic Life
              Insurance coverage.

      4.b. Compare the result in procedure 4.a. to the RITS submission. Report any differences resulting from
           this procedure and obtain management’s explanation of the differences.

Finding 4
We randomly selected 10 employees (presented in the accompanying Schedule W for DOI, Schedule X for ED,
Schedule Y for DOT, Schedule Z for NASA, Schedule AA for NSF, Schedule BB for NRC, and Schedule CC for
SSA) who had no life insurance withholdings from the payroll information corresponding to the three RITS
submissions noted in procedure A.

For each employee listed in Schedules W, X, Y, Z, AA, BB, and CC, we obtained the respective SF-2817s
covering the pay periods noted in procedure A., from the employees’ OPF, and inspected the SF-2817s noting
that the employee waived or canceled basic life insurance coverage. We compared the basic life insurance
coverage waiver or cancellation status to the information on the RITS submissions obtained in procedure A. We
identified differences between the SF-2817 and the employee withholding amount as noted on the employee’s
LES, which are presented in Schedule DD. Refer to Attachment D received from management providing reasons
for the differences. No additional procedures were performed with respect to managements’ representations as to
the reasons for the differences.

Procedure 5
5.    Calculate the headcount reflected on the September 2009 and March 2010 Semiannual Headcount Reports
      selected, as follows:

      5.a.    Obtain existing FPPS Payroll Summary Reports (from procedure 1.a.) supporting each Supplemental
              Semiannual Headcount report. If existing payroll data is not available, obtain a FPPS payroll system
              query that summarizes detailed payroll data supporting each Supplemental Semiannual Headcount
              Report, as follows:

                   Benefit Category (see Semiannual Headcount Report)
                   Dollar Amount of withholdings and contributions
                   Number Enrolled (deductions made/no deductions)
                   Central Personnel Data File Code
                   Aggregate Base Salary.

                                                        11
                                                                                                        Exhibit I




     5.b. Recalculate the headcount reflected on each Semiannual Headcount Report (that is, calculate the
          headcount using the payroll data obtained in procedure 5.a.). If an electronic file is not available, a
          suggested method of recalculating the Headcount is as follows: (1) estimate the number of
          employees per payroll register page by counting the employees listed on several pages, (2) count the
          number of pages in the payroll register, and (3) multiply the number of employees per page by the
          number of pages, or count the number of employees on the payroll data file for the period.

     5.c.     Compare the headcount reporting on each of the Agency’s respective Semiannual Headcount Report
              and payroll information obtained in procedure 5.a. to the calculated headcount from procedure 5.b.

     5.d. Report any differences (i.e., gross rather than net) greater than two percent resulting from procedure
          5.c., and obtain management’s contact information (that is, a management official’s name, telephone
          number, and e-mail address) and management’s explanation of the differences.

Finding 5
We obtained the FPPS Payroll Summary Reports supporting each Supplemental Semiannual Headcount Report,
and calculated the headcount using the payroll data. We compared the headcount on each agency’s respective
Semiannual Headcount Report and FPPS Payroll Summary Report obtained in procedure 5.a. to the calculated
headcount from procedure 5.b. obtained from an electronic file. We found such amounts to be below the
threshold.

Procedure 6
6.   Calculate employee withholdings and employer contributions for Retirement, Health Benefits, and Life
     Insurance as follows:

     6.a.     Calculate employee withholdings and employer contributions for Retirement for the three pay
              periods selected in procedure A., as follows:

              i.    Multiply the CSRS and FERS payroll base obtained from payroll queries provided by the
                    DOI-NBC by the employee withholding and employer contribution rates required by law
                    (Civil Service Retirement Act of 1930).

              ii.   Compare the calculated totals from procedure 6.a.i. to the related actual amounts shown on the
                    RITS submissions. Report any differences (i.e., gross rather than net) between the calculated
                    retirement amounts and the actual retirement amounts reported on the RITS submissions
                    greater than five percent of the amounts reported on the RITS submission, and obtain
                    management’s explanation of the differences.

     6.b. Calculate employee withholdings and employer contributions for Health Benefits for the three pay
          periods selected in procedure A., as follows:

              i.    Multiply the number of employees enrolled in each Health Benefits plan and plan option from
                    the RITS submissions by the employee withholdings and employer contributions for the plan
                    and option from the payroll queries provided by the DOI-NBC.




                                                       12
                                                                                                    Exhibit I




       ii.    Sum the totals in procedure 6.b.i. and compare the result with the Health Benefit employee
              withholding and employer contribution amounts shown on the RITS submissions. Report any
              differences (i.e., gross rather than net) between the calculated health benefit amounts and the
              actual health benefit amounts reported on the RITS submissions greater than five percent of
              the amounts reported on the RITS submission, and obtain management’s explanation of the
              differences.

6.c.   Calculate the Basic Life Insurance employee withholdings and employer contributions for the three
       pay periods selected in procedure A., as follows:

       i.     Obtain a payroll system query from the DOI-NBC to obtain the total number of employees
              with Basic Life Insurance coverage and the aggregate annual basic pay for all employees with
              Basic Life Insurance.

       ii.    For employee withholdings: Add the product of 2,000 times the number of employees with
              Basic Life Insurance coverage obtained in procedure 6.c.i. to the aggregate annual basic pay
              for all employees with Basic Life Insurance obtained in procedure 6.c.i. to calculate the
              estimated total Basic Life Insurance coverage. Divide this calculated total (the estimated total
              Basic Life Insurance coverage) by 1,000 and multiply by the withholding rate required by law.
              The Life Insurance withholding rates can be found in the FEGLI Program Booklet on OPM’s
              website.

       iii.   Compare the result in procedure 6.c.ii. to the employee withholdings for Basic Life Insurance
              coverage reported on the RITS submission. Report any difference (i.e., gross rather than net)
              between the calculated basic life insurance amount and the actual amount of withholdings
              reported on the RITS submission greater than five percent of the amounts reported on the
              RITS submission, and obtain management’s explanation of the difference.

       iv.    For employer contributions: Divide the results of procedure 6.c.ii. by two (this approximates
              the employer contributions, which are one-half of employee withholdings). Compare this
              result to the actual amount of employer contributions reported on the RITS submission. Report
              any differences (i.e., gross rather than net) between the calculated basic life insurance amount
              and the actual amount of contributions reported on the RITS submission greater than
              five percent of the amounts reported on the RITS submission, and obtain management’s
              explanation of the differences.

6.d. Calculate the Option A, Option B, and Option C Life Insurance coverage withholdings for the three
     pay periods selected in procedure A. In addition to the information used for procedure 1.a., the
     reports used for this procedure should include the employee’s date of birth, annual rate of basic pay,
     and number of multiples selected for Option B and C. Note: While similar to procedure 2.j., the
     calculation here is for the entire amount reported on the RITS submissions for the three pay periods
     selected, as opposed to the sample of 25 employees in procedure 2.j.

       i.     Multiply the number of employees in each age group from the payroll information by the
              appropriate rate for Option A in accordance with the rates for age groups provided in the
              FEGLI Program Booklet.



                                                  13
                                                                                                          Exhibit I




            ii.    Compare the result in procedure 6.d.i. to the amounts for Option A reported on the RITS
                   submissions. Report any differences (i.e., gross rather than net) greater than two percent of the
                   amounts reported on the RITS submission for Option A, and obtain management’s explanation
                   of the differences.

            iii.   For Option B and Option C Life Insurance, determine participants by the age groups shown in
                   the FEGLI Program Booklet. For Option B, round the employee’s annual rate of basic pay
                   from the payroll information up to the next 1,000, divide by 1,000, multiply by the rate for the
                   age group from FEGLI Program Booklet, multiply this by the number of multiples from the
                   payroll information: (Annual rate of basic pay (rounded up)/1,000*rate*multiples). For
                   Option C, multiply the rate for the age group from the FEGLI Program Booklet by the number
                   of multiples chosen for each employee from the payroll information.

            iv.    Compare the results in procedure 6.d.iii. to the amounts for Option B and Option C,
                   respectively, reported on the RITS submissions. Report any differences (i.e., gross rather than
                   net) greater than two percent of the amounts on the RITS submission for Option B or
                   Option C, and obtain management’s explanation of the differences.

Finding 6
We calculated the employee withholdings and employer contributions for Retirement for the three pay periods,
selected in procedure A., as indicated in procedure 6.a. above. We compared the calculated total employee
withholding and employer contribution amounts for retirement to the related actual employee withholding and
employer contribution amounts for retirement as reported on the RITS submissions. We found such information
to be below the threshold.
We calculated the employee withholdings and employer contributions for Health Benefits for the three pay
periods, selected in procedure A., as indicated in procedure 6.b. above. We compared the calculated total
employee withholding and employer contribution amounts for health benefits to the related actual employee
withholding and employer contribution amounts for health benefits as reported on the RITS submissions. We
identified differences between the calculated amounts and the actual amounts on the RITS submissions that
exceeded the five-percent threshold, which are presented in Schedule EE. Refer to Attachment A received from
management providing reasons for the differences. No additional procedures were performed with respect to
managements’ representations as to the reasons for the differences.

We calculated the employee withholdings and employer contributions for Basic Life Insurance for the three pay
periods, selected in procedure A., as indicated in procedure 6.c. above. We compared the calculated total
employee withholding and employer contribution amounts for basic life insurance to the related actual employee
withholding and employer contribution amounts for basic life insurance as reported on the RITS submissions.
We identified differences between the calculated amounts and the actual amounts on the RITS submissions that
exceed the five-percent threshold, which are presented in Schedule FF. Refer to Attachment A received from
management providing reasons for the differences. No additional procedures were performed with respect to
managements’ representations as to the reasons for the differences.

We calculated the employee withholdings for Option A Life Insurance for the three pay periods, selected in
procedure A., as indicated in procedure 6.d. above. We compared the calculated Option A Life Insurance total
employee withholding amounts to the related actual Option A Life Insurance employee withholding amounts as
reported on the RITS submissions. We identified differences between the calculated amounts and the actual

                                                        14
                                                                                                     Exhibit I




amounts on the RITS submissions that exceeded the two-percent threshold, which are presented in Schedule GG.
Refer to Attachment A received from management providing reasons for the differences. No additional
procedures were performed with respect to managements’ representations as to the reasons for the differences.

We calculated the employee withholding amounts for Option B Life Insurance for the three pay periods, selected
in procedure A., as indicated in procedure 6.d. above. We compared the calculated Option B Life Insurance total
employee withholding amounts to the related actual Option B Life Insurance employee withholding amounts as
reported on the RITS submissions. We identified differences between the calculated amount and the actual
amount on the RITS submissions that exceeded the two-percent threshold, which is presented in Schedule HH.
Refer to Attachment A received from management providing reasons for the differences. No additional
procedures were performed with respect to managements’ representations as to the reasons for the differences.

We calculated the employee withholding amounts for Option C Life Insurance for the three pay periods, selected
in procedure A., as indicated in procedure 6.d. above. We compared the calculated Option C Life Insurance total
employee withholding amounts to the related actual Option C Life Insurance employee withholding amounts as
reported on the RITS submissions. We identified differences between the calculated amounts and the actual
amounts on the RITS submission that exceeded the two-percent threshold, which are presented in Schedule II.
Refer to Attachment A received from management providing reasons for the differences. No additional
procedures were performed with respect to managements’ representations as to the reasons for the differences.




                                                     15
                                                                                                                                  Schedule A
                                              NATIONAL SCIENCE FOUNDATION (NSF)
                                      FPPS Recalculation to FPPS Payroll Summary Report Differences


                                                                                                                             Explanation
                                                                                                                            (see Exhibit I,
                                                                                                                              procedure
                          Agency                               Payroll period           Category          Difference             1.a.)
                           NSF                                     200918              Life – Basic   $       (247.20)              a
                           NSF                                     200918              Life – Gov’t           (126.53)              a
a DOI-NBC management determined that differences noted were due to differences in calculations. Per the OPM agreed-upon
  procedures, we based our calculations on annualized biweekly wages. Per DOI-NBC management, a more precise calculation should
  be based on annual salary and tour of duty.


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                                     16
                                                                                                                              Schedule B
                                              NATIONAL SCIENCE FOUNDATION (NSF)
                                       RITS Submission Recalculation to RITS Submission Differences


                                                                                                                            Explanation
                                                                                                                           (see Exhibit I,
                                                                                                                             procedure
                          Agency                               Payroll period           Category          Difference            1.b.)
                           NSF                                     200918              Life – Basic   $       (247.20)           a
                           NSF                                     200918              Life – Gov’t           (126.53)           a
a DOI-NBC management determined that differences noted were due to differences in calculations. Per the OPM agreed-upon
  procedures, we based our calculations on annualized biweekly wages. Per DOI-NBC management, a more precise calculation
  should be based on annual salary and tour of duty.


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                                     17
                                                                                       Schedule C
                        UNITED STATES DEPARTMENT OF THE INTERIOR
                      Employees With Retirement, Health Benefits, and Life Insurance


Sample item                                             Bureau or office
      1                                                Indian Affairs
      2                                                Indian Affairs
      3                                        Bureau of Land Management
      4                                        Bureau of Land Management
      5                                        Bureau of Land Management
      6                                        Bureau of Land Management
      7                                           Bureau of Reclamation
      8                                           Bureau of Reclamation
      9                                        U.S. Fish and Wildlife Service
     10                                        U.S. Fish and Wildlife Service
     11                                        U.S. Fish and Wildlife Service
     12                                        U.S. Fish and Wildlife Service
     13                                        Mineral Management Service
     14                                            National Park Service
     15                                            National Park Service
     16                                            National Park Service
     17                                            National Park Service
     18                                            National Park Service
     19                                            National Park Service
     20                                            National Park Service
     21                                            National Park Service
     22                                           Office of the Secretary
     23                                       United States Geological Survey
     24                                       United States Geological Survey
     25                                       United States Geological Survey


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   18
                                                                                       Schedule D
                       UNITED STATES DEPARTMENT OF EDUCATION (ED)
                      Employees With Retirement, Health Benefits, and Life Insurance


Sample item                                              Agency
      1                                                     ED
      2                                                     ED
      3                                                     ED
      4                                                     ED
      5                                                     ED
      6                                                     ED
      7                                                     ED
      8                                                     ED
      9                                                     ED
     10                                                     ED
     11                                                     ED
     12                                                     ED
     13                                                     ED
     14                                                     ED
     15                                                     ED
     16                                                     ED
     17                                                     ED
     18                                                     ED
     19                                                     ED
     20                                                     ED
     21                                                     ED
     22                                                     ED
     23                                                     ED
     24                                                     ED
     25                                                     ED


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   19
                                                                                        Schedule E
                     UNITED STATES DEPARTMENT OF TRANSPORTATION
                      Employees With Retirement, Health Benefits, and Life Insurance


Sample item                                             Bureau or office
     1                                       Federal Aviation Administration
     2                                       Federal Aviation Administration
     3                                       Federal Aviation Administration
     4                                       Federal Aviation Administration
     5                                       Federal Aviation Administration
     6                                    United States Maritime Administration
     7                                       Federal Aviation Administration
     8                                       Federal Aviation Administration
     9                                       Federal Aviation Administration
     10                                      Federal Aviation Administration
     11                                      Federal Aviation Administration
     12                                      Federal Aviation Administration
     13                                      Federal Aviation Administration
     14                                      Federal Aviation Administration
     15                                      Federal Aviation Administration
     16                                      Federal Aviation Administration
     17                                      Federal Aviation Administration
     18                             Research and Innovative Technology Administration
     19                                  Office of the Secretary of Transportation
     20                                      Federal Aviation Administration
     21                                      Federal Aviation Administration
     22                                      Federal Aviation Administration
     23                                      Federal Aviation Administration
     24                                      Federal Aviation Administration
     25                                      Federal Aviation Administration


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   20
                                                                                       Schedule F
               NATIONAL AERONAUTICS AND SPACE ADMINISTRATION (NASA)
                      Employees With Retirement, Health Benefits, and Life Insurance


Sample item                                              Agency
     1                                                    NASA
     2                                                    NASA
     3                                                    NASA
     4                                                    NASA
     5                                                    NASA
     6                                                    NASA
     7                                                    NASA
     8                                                    NASA
     9                                                    NASA
     10                                                   NASA
     11                                                   NASA
     12                                                   NASA
     13                                                   NASA
     14                                                   NASA
     15                                                   NASA
     16                                                   NASA
     17                                                   NASA
     18                                                   NASA
     19                                                   NASA
     20                                                   NASA
     21                                                   NASA
     22                                                   NASA
     23                                                   NASA
     24                                                   NASA
     25                                                   NASA


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   21
                                                                                       Schedule G
                          NUCLEAR REGULATORY COMMISSION (NRC)
                      Employees With Retirement, Health Benefits, and Life Insurance


Sample item                                              Agency
      1                                                    NRC
      2                                                    NRC
      3                                                    NRC
      4                                                    NRC
      5                                                    NRC
      6                                                    NRC
      7                                                    NRC
      8                                                    NRC
      9                                                    NRC
     10                                                    NRC
     11                                                    NRC
     12                                                    NRC
     13                                                    NRC
     14                                                    NRC
     15                                                    NRC
     16                                                    NRC
     17                                                    NRC
     18                                                    NRC
     19                                                    NRC
     20                                                    NRC
     21                                                    NRC
     22                                                    NRC
     23                                                    NRC
     24                                                    NRC
     25                                                    NRC


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   22
                                                                                       Schedule H
                             NATIONAL SCIENCE FOUNDATION (NSF)
                      Employees With Retirement, Health Benefits, and Life Insurance


Sample item                                              Agency
      1                                                    NSF
      2                                                    NSF
      3                                                    NSF
      4                                                    NSF
      5                                                    NSF
      6                                                    NSF
      7                                                    NSF
      8                                                    NSF
      9                                                    NSF
     10                                                    NSF
     11                                                    NSF
     12                                                    NSF
     13                                                    NSF
     14                                                    NSF
     15                                                    NSF
     16                                                    NSF
     17                                                    NSF
     18                                                    NSF
     19                                                    NSF
     20                                                    NSF
     21                                                    NSF
     22                                                    NSF
     23                                                    NSF
     24                                                    NSF
     25                                                    NSF


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   23
                                                                                       Schedule I
                            SOCIAL SECURITY ADMINISTRATION (SSA)
                      Employees With Retirement, Health Benefits, and Life Insurance


Sample item                                              Agency
      1                                                    SSA
      2                                                    SSA
      3                                                    SSA
      4                                                    SSA
      5                                                    SSA
      6                                                    SSA
      7                                                    SSA
      8                                                    SSA
      9                                                    SSA
     10                                                    SSA
     11                                                    SSA
     12                                                    SSA
     13                                                    SSA
     14                                                    SSA
     15                                                    SSA
     16                                                    SSA
     17                                                    SSA
     18                                                    SSA
     19                                                    SSA
     20                                                    SSA
     21                                                    SSA
     22                                                    SSA
     23                                                    SSA
     24                                                    SSA
     25                                                    SSA


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   24
                                                                                                                              Schedule J
                                     UNITED STATES DEPARTMENT OF THE INTERIOR (DOI)
                                                      Annual Base Salary Differences


                                                                                                                           Explanation
                                                                                                                          (see Exhibit I,
                                                                                                                            procedure
                          Bureau                               Payroll period          Sample item       Difference            2.c.)
               Bureau of Reclamation (BOR)                         200918                  8         $         24.44            a
                          BOR                                      201005                  8                    7.52            a
                          BOR                                      201008                  8                    5.64            a
a DOI-BOR management determined that differences noted were due to the employee performing higher grade work and being paid
  at a higher level for those hours than per the base salary.


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                                     25
                                                                                                                              Schedule K
                                     UNITED STATES DEPARTMENT OF THE INTERIOR (DOI)
                                 Retirement Withholding Recalculation Differences – Employee Contributions


                                                                                                                           Explanation
                                                                                                                          (see Exhibit I,
                                                                                                                            procedure
                          Agency                               Payroll period          Sample item           Difference        2.e.)
               Bureau of Reclamation (BOR)                         200918                  8         $             0.20         a
                          BOR                                      201005                  8                       0.06         a
                          BOR                                      201008                  8                       0.05         a
a DOI-BOR management determined that differences noted were due to the employee performing higher grade work and being paid
  at a higher level for those hours than per the base salary.


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                                     26
                                                                                                                              Schedule L
                                     UNITED STATES DEPARTMENT OF THE INTERIOR (DOI)
                                 Retirement Withholding Recalculation Differences – Employer Contributions


                                                                                                                           Explanation
                                                                                                                          (see Exhibit I,
                                                                                                                            procedure
                          Agency                               Payroll period          Sample item           Difference        2.e.)
               Bureau of Reclamation (BOR)                         200918                  8          $            2.74         a
                          BOR                                      201005                  8                       0.84         a
                          BOR                                      201008                  8                       0.63         a
a DOI-BOR management determined that differences noted were due to the employee performing higher grade work and being paid
  at a higher level for those hours than per the base salary.


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                                     27
                                                                                                                               Schedule M
                                     UNITED STATES DEPARTMENT OF THE INTERIOR (DOI)
                               Health Benefits Withholding Recalculation Differences – Employee Withholdings


                                                                                                                              Explanation
                                                                                                                             (see Exhibit I,
                                                                                                                               procedure
                          Agency                                Payroll period         Sample item        Difference              2.f.)
            U.S. Fish and Wildlife Service (FWS)                   200918                  11         $        149.14              a
                           FWS                                     201005                  11                  150.17              a
                           FWS                                     201008                  11                  150.17              a
a DOI-FWS management determined this employee transferred to DOI from a another agency, and the respective SF-2809 was not
  transferred with the employee, and as such, was not available for our review.


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                                     28
                                                                                                                                Schedule N
                                     UNITED STATES DEPARTMENT OF THE INTERIOR (DOI)
                               Health Benefits Withholding Recalculation Differences – Employer Contributions


                                                                                                                              Explanation
                                                                                                                             (see Exhibit I,
                                                                                                                               procedure
                          Agency                                Payroll period         Sample item         Difference             2.f.)
            U.S. Fish and Wildlife Service (FWS)                   200918                  11         $         352.56             a
                           FWS                                     201005                  11                   376.04             a
                           FWS                                     201008                  11                   376.04             a
a DOI-FWS management determined this employee transferred to DOI from a another agency, and the respective SF-2809 was not
  transferred with the employee, and as such, was not available for our review.


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                                     29
                                                                                                                                 Schedule O
                                                   National Science Foundation (NSF)
                                       Optional Life Insurance Withholding Recalculation Differences


                                                                                                                               Explanation
                                                                                                                              (see Exhibit I,
                                                                                                                                procedure
                           Agency                                Payroll period          Sample item          Difference           2.j.)
                            NSF                                      200918                    5          $         0.90            a
                            NSF                                      200105                    5                    0.90            a
                            NSF                                      201008                    5                    0.90            a
a NSF management determined that the employee elected coverage for Option A, B, and/or C; however, the agency noted that when this
  selection was made in 1999, the employee’s agency at the time (U.S. Postal Service) did not properly update the SF-2817 action
  resulting in an under deduction.


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                                    30
                                                                                       Schedule P
                        UNITED STATES DEPARTMENT OF THE INTERIOR
                                   Employees With No Health Benefits


Sample item                                             Bureau or office
      1                                                Indian Affairs
      2                                        Bureau of Land Management
      3                                        Bureau of Land Management
      4                                           Bureau of Reclamation
      5                                        U.S. Fish and Wildlife Service
      6                                        U.S. Fish and Wildlife Service
      7                                            National Park Service
      8                                            National Park Service
      9                                            National Park Service
     10                                       United States Geological Survey


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   31
                                                                                       Schedule Q
                       UNITED STATES DEPARTMENT OF EDUCATION (ED)
                                   Employees With No Health Benefits


Sample item                                              Agency
      1                                                     ED
      2                                                     ED
      3                                                     ED
      4                                                     ED
      5                                                     ED
      6                                                     ED
      7                                                     ED
      8                                                     ED
      9                                                     ED
     10                                                     ED


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   32
                                                                                       Schedule R
                     UNITED STATES DEPARTMENT OF TRANSPORTATION
                                   Employees With No Health Benefits


Sample item                                             Bureau or office
      1                                      Federal Aviation Administration
      2                                 Federal Motor Carrier Safety Administration
      3                                      Federal Aviation Administration
      4                                      Federal Aviation Administration
      5                                      Federal Aviation Administration
      6                                      Federal Aviation Administration
      7                                      Federal Aviation Administration
      8                                      Federal Aviation Administration
      9                                 Federal Motor Carrier Safety Administration
     10                                      Federal Aviation Administration


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   33
                                                                                       Schedule S
               NATIONAL AERONAUTICS AND SPACE ADMINISTRATION (NASA)
                                   Employees With No Health Benefits


Sample item                                              Agency
      1                                                   NASA
      2                                                   NASA
      3                                                   NASA
      4                                                   NASA
      5                                                   NASA
      6                                                   NASA
      7                                                   NASA
      8                                                   NASA
      9                                                   NASA
     10                                                   NASA


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   34
                                                                                       Schedule T
                             NATIONAL SCIENCE FOUNDATION (NSF)
                                   Employees With No Health Benefits


Sample item                                              Agency
      1                                                    NSF
      2                                                    NSF
      3                                                    NSF
      4                                                    NSF
      5                                                    NSF
      6                                                    NSF
      7                                                    NSF
      8                                                    NSF
      9                                                    NSF
     10                                                    NSF


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   35
                                                                                       Schedule U
                          NUCLEAR REGULATORY COMMISSION (NRC)
                                   Employees With No Health Benefits


Sample item                                              Agency
      1                                                    NRC
      2                                                    NRC
      3                                                    NRC
      4                                                    NRC
      5                                                    NRC
      6                                                    NRC
      7                                                    NRC
      8                                                    NRC
      9                                                    NRC
     10                                                    NRC


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   36
                                                                                       Schedule V
                            SOCIAL SECURITY ADMINISTRATION (SSA)
                                   Employees With No Health Benefits


Sample item                                              Agency
      1                                                    SSA
      2                                                    SSA
      3                                                    SSA
      4                                                    SSA
      5                                                    SSA
      6                                                    SSA
      7                                                    SSA
      8                                                    SSA
      9                                                    SSA
     10                                                    SSA


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   37
                                                                                       Schedule W
                       UNITED STATES DEPARTMENT OF THE INTERIOR
                                    Employees With No Life Insurance


Sample item                                          Bureau or Office
      1                                                Indian Affairs
      2                                        Bureau of Land Management
      3                                        Bureau of Land Management
      4                                           Bureau of Reclamation
      5                                        U.S. Fish and Wildlife Service
      6                                        U.S. Fish and Wildlife Service
      7                                            National Park Service
      8                                            National Park Service
      9                                            National Park Service
     10                                       United States Geological Survey


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   38
                                                                                       Schedule X
                       UNITED STATES DEPARTMENT OF EDUCATION (ED)
                                    Employees With No Life Insurance


Sample item                                              Agency
      1                                                     ED
      2                                                     ED
      3                                                     ED
      4                                                     ED
      5                                                     ED
      6                                                     ED
      7                                                     ED
      8                                                     ED
      9                                                     ED
     10                                                     ED


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   39
                                                                                       Schedule Y
                     UNITED STATES DEPARTMENT OF TRANSPORTATION
                                    Employees With No Life Insurance


Sample item                                             Bureau or office
      1                                       Federal Aviation Administration
      2                                   Office of the Secretary of Transportation
      3                                       Federal Aviation Administration
      4                                       Federal Aviation Administration
      5                                       Federal Aviation Administration
      6                                       Federal Aviation Administration
      7                                       Federal Aviation Administration
      8                                       Federal Aviation Administration
      9                                       Federal Aviation Administration
     10                                       Federal Aviation Administration


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   40
                                                                                       Schedule Z
               NATIONAL AERONAUTICS AND SPACE ADMINISTRATION (NASA)
                                    Employees With No Life Insurance


Sample item                                              Agency
      1                                                   NASA
      2                                                   NASA
      3                                                   NASA
      4                                                   NASA
      5                                                   NASA
      6                                                   NASA
      7                                                   NASA
      8                                                   NASA
      9                                                   NASA
     10                                                   NASA


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   41
                                                                                       Schedule AA
                             NATIONAL SCIENCE FOUNDATION (NSF)
                                    Employees With No Life Insurance


Sample item                                              Agency
      1                                                    NSF
      2                                                    NSF
      3                                                    NSF
      4                                                    NSF
      5                                                    NSF
      6                                                    NSF
      7                                                    NSF
      8                                                    NSF
      9                                                    NSF
     10                                                    NSF


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   42
                                                                                       Schedule BB
                          NUCLEAR REGULATORY COMMISSION (NRC)
                                    Employees With No Life Insurance


Sample item                                              Agency
      1                                                    NRC
      2                                                    NRC
      3                                                    NRC
      4                                                    NRC
      5                                                    NRC
      6                                                    NRC
      7                                                    NRC
      8                                                    NRC
      9                                                    NRC
     10                                                    NRC


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   43
                                                                                       Schedule CC
                            SOCIAL SECURITY ADMINISTRATION (SSA)
                                    Employees With No Life Insurance


Sample item                                              Agency
      1                                                    SSA
      2                                                    SSA
      3                                                    SSA
      4                                                    SSA
      5                                                    SSA
      6                                                    SSA
      7                                                    SSA
      8                                                    SSA
      9                                                    SSA
     10                                                    SSA


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   44
                                                                                              Schedule DD
                                 Nuclear Regulatory Commission (NRC)
                                  No Life Insurance Election Differences


                                                                                             Explanation
                                                                                            (see Exhibit I,
                                                                                              procedure
                    Bureau                           Payroll period        Sample item           4.b.)
                     NRC                                200918                 8                    a
                     NRC                                201005                 8                    a
                     NRC                                201008                 8                    a
a NRC management determined that there is no SF-2817 indicating that the employee waived all life
  insurance coverage. The most current SF-2817 reflects the election of life insurance coverage.


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   45
                                                                                                           Schedule EE
                      UNITED STATES DEPARTMENT OF THE INTERIOR (DOI)
                       UNITED STATES DEPARTMENT OF EDUCATION (ED)
                    UNITED STATES DEPARTMENT OF TRANSPORTATION (DOT)
                  NATIONAL AERONAUTICS AND SPACE ADMINISTRATION (NASA)
                          NUCLEAR REGULATORY COMMISSION (NRC)
                           SOCIAL SECURITY ADMINISTRATION (SSA)
         Variances Exceeding Five Percent – Health Benefits – Calculated Amount Versus RITS Submission


                                                                                                          Explanation
                                                                                                         (see Exhibit I,
                                                                   Enrollment                              procedure
     Agency/Bureau or Office                   Payroll period         code            Difference              6.b.)
  DOI – Bureau of Indian Affairs                  200918              A32                   -7.14%              a
  DOI – Bureau of Indian Affairs                  200918              CY2                   -9.41%              b
  DOI – Bureau of Indian Affairs                  200918              LP1                  -23.08%              b
  DOI – Bureau of Indian Affairs                  200918              M52                  -22.22%              b
  DOI – Bureau of Indian Affairs                  200918              P21                   -7.73%              b
  DOI – Bureau of Indian Affairs                  200918              P24                  -10.42%              b
  DOI – Bureau of Indian Affairs                  200918              Q11                   -6.02%            a ,b
  DOI – Bureau of Indian Affairs                  200918              RU1                  100.00%              b
  DOI – Bureau of Indian Affairs                  200918              SI2                  -22.22%              b
  DOI – Bureau of Indian Affairs                  200918              WQ1                   -6.82%              b
  DOI – Bureau of Indian Affairs                  200918              104                   -7.85%            a, b
  DOI – Bureau of Indian Affairs                  200918              111                   -7.43%            a, b
  DOI – Bureau of Indian Affairs                  200918              224                   -7.55%              b
  DOI – Bureau of Indian Affairs                  200918              311                   -9.66%            a, b
  DOI – Bureau of Indian Affairs                  200918              314                   -9.87%            a, b
  DOI – Bureau of Indian Affairs                  200918              321                   -8.69%              b
  DOI – Bureau of Indian Affairs                  200918              341                  -12.81%              b
  DOI – Bureau of Indian Affairs                  200918              402                  -18.52%              b
  DOI – Bureau of Indian Affairs                  200918              A71                   -8.70%              b
  DOI – Bureau of Indian Affairs                  200918              CY1                   -9.41%              b
  DOI – Bureau of Indian Affairs                  200918              LP2                   -9.31%              b
  DOI – Bureau of Indian Affairs                  200918              M51                  -16.00%              b
  DOI – Bureau of Indian Affairs                  200918              P22                   -9.75%            a, b
  DOI – Bureau of Indian Affairs                  200918              P25                  -11.35%              b
  DOI – Bureau of Indian Affairs                  200918              SI1                  -22.22%              b
  DOI – Bureau of Indian Affairs                  200918              105                   -6.57%            a, b
  DOI – Bureau of Indian Affairs                  200918              112                   -7.04%            a, b
  DOI – Bureau of Indian Affairs                  200918              2X2                   -8.70%              b
  DOI – Bureau of Indian Affairs                  200918              222                  -12.50%              a
  DOI – Bureau of Indian Affairs                  200918              225                  -12.77%              b
  DOI – Bureau of Indian Affairs                  200918              312                  -10.58%            a, b
  DOI – Bureau of Indian Affairs                  200918              315                   -7.16%            a, b
  DOI – Bureau of Indian Affairs                  200918              322                   -8.70%              b
  DOI – Bureau of Indian Affairs                  200918              414                  -13.41%            a, b
  DOI – Bureau of Indian Affairs                  200918              415                   -9.35%            a, b
  DOI – Bureau of Indian Affairs                  200918              455                   -5.93%            a, b
  DOI – Bureau of Indian Affairs                  200918              482                  -17.87%              b
  DOI – Bureau of Indian Affairs                  200918              621                  -20.09%            b, c
  DOI – Bureau of Indian Affairs                  200918              454                   -9.04%            a, b
  DOI – Bureau of Indian Affairs                  200918              471                  -17.44%            a, b
  DOI – Bureau of Indian Affairs                  200918              622                  -18.00%              b
DOI – Minerals Management Service                 200918              SI2                  -33.33%              a
DOI – Minerals Management Service                 200918              SJ2                 -100.00%              a
DOI – U.S. Fish and Wildlife Service              201005              JN4                  -16.50%              a




                                                      46                                                      (Continued)
                                                                                                                       Schedule EE
                               UNITED STATES DEPARTMENT OF THE INTERIOR (DOI)
                                UNITED STATES DEPARTMENT OF EDUCATION (ED)
                             UNITED STATES DEPARTMENT OF TRANSPORTATION (DOT)
                           NATIONAL AERONAUTICS AND SPACE ADMINISTRATION (NASA)
                                   NUCLEAR REGULATORY COMMISSION (NRC)
                                    SOCIAL SECURITY ADMINISTRATION (SSA)
                 Variances Exceeding Five Percent – Health Benefits – Calculated Amount Versus RITS Submission


                                                                                                                      Explanation
                                                                                                                     (see Exhibit I,
                                                                               Enrollment                              procedure
             Agency/Bureau or Office                      Payroll period          code             Difference             6.b.)
           DOI – Office of the Secretary                     201005                JP2                   71.18%             a
           DOI – Office of the Secretary                     201005               321                   -10.00%             a
           DOI – Office of the Secretary                     201005               455                     5.53%             a
           DOI – Office of the Secretary                     201005                JP1                  -36.37%             a
           DOI – Office of the Secretary                     201005               M51                   300.65%             a
        DOI – Bureau of Land Management                      201008               L12                  -119.37%             a
           DOI – National Park Service                       201008               E31                    26.27%             a
           DOI – National Park Service                       201008               DK4                   -33.37%             a
           DOI – National Park Service                       201008               F81                   -62.39%             a
           DOI – U.S. Geological Survey                      201008               EA1                   -14.26%             a
           DOI – U.S. Geological Survey                      201008               EA2                    33.32%             a
                       ED                                    201008               642                   599.93%             a
      DOT – Federal Aviation Administration                  200918               D62                    -9.30%             a
      DOT – Federal Aviation Administration                  200918               ED2                   -41.05%             a
      DOT – Federal Aviation Administration                  200918               ED1                    75.06%             a
      DOT – Federal Aviation Administration                  200918               IK2                     5.88%             a
      DOT – Federal Aviation Administration                  200918               JN2                    21.64%             a
      DOT – Federal Aviation Administration                  200918              MK4                   -106.67%             a
      DOT – Federal Highway Administration                   200918               591                   -41.67%             a
  DOT – Federal Motor Carrier Safety Administration          201005               112                    -9.27%             a
                      NASA                                   200918               472                   -50.00%             a
                      NASA                                   200918               471                  -100.00%             a
                       NRC                                   200918               E32                     5.43%             a
                       SSA                                   200918               ED2                     8.67%             a
                       SSA                                   200918               HA2                     9.93%             a
                       SSA                                   200918               JC5                    -7.14%             a
                       SSA                                   200918               K91                    14.20%             a
                       SSA                                   200918               ZJ1                   -15.38%             a
                       SSA                                   200918               115                  -112.50%             a
                       SSA                                   200918               512                   -18.35%             a
                       SSA                                   200918               515                  -146.24%             a
                       SSA                                   200918               571                    15.08%             a
                       SSA                                   200918               452                  -100.00%             a
                       SSA                                   201005               E92                    29.89%             a
                       SSA                                   201005               515                   -19.97%             a
                       SSA                                   201005               801                    -6.82%             a
                       SSA                                   201005               802                    22.33%             a
                       SSA                                   201008               ED1                  -100.00%             a
                       SSA                                   201008               F85                   -20.07%             a
                       SSA                                   201008               415                    10.00%             a
                       SSA                                   201008               7D1                     6.21%             a
                       SSA                                   201008               9R1                    -6.51%             a
                       SSA                                   201008               9R2                     6.66%             a
a DOI-NBC management determined that health benefit differences noted were due to retroactive adjustments processed.
b DOI-NBC management determined that health benefit differences noted were due to current year adjustments processed.
c DOI-NBC management determined that health benefit differences noted were due to current year adjustments that were readjusted.


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                               47
                                                                                                              Schedule FF
                          UNITED STATES DEPARTMENT OF TRANSPORTATION (DOT)
                                  Variance Exceeding Five Percent – Basic Life Insurance –
                                        Calculated Amount Versus RITS Submission


                                                                                                             Explanation
                                                                                                            (see Exhibit I,
                                                      Payroll          Employee or           Withholdings     procedure
           Agency/Bureau or office                    period            Employer              difference         6.c.)
      DOT – Office of Inspector General               201005             Employer                 (5.01)%         a
a DOI-NBC management determined that differences noted were due to differences in calculations. Per the OPM
  agreed-upon procedures, we based our calculations on annualized bi-weekly wages. Per DOI-NBC management,
  a more precise calculation should be based on annual salary and tour of duty.


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                            48
                                                                                                    Schedule GG
                     UNITED STATES DEPARTMENT OF THE INTERIOR (DOI)
                  NATIONAL AERONAUTIC AND SPACE ADMINISTRATION (NASA)
                          Variance Exceeding Two Percent – Option A Life Insurance –
                                  Calculated Amount Versus RITS Submission


                                                                                                  Explanation
                                                                                                 (see Exhibit I,
                                                             Payroll         Withholdings          procedure
              Agency/Bureau or office                        period           difference              6.d.)
           DOI – Bureau of Indian Affairs                    200918                    (6.72)%          a
                     NASA                                    201005                    (4.93)           b
a DOI-NBC management determined that the difference noted was due to contract educators that have
  the 12 months of deductions taken in nine months.
b DOI-NBC management determined that the difference noted was due to retroactive adjustments processed.



See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                     49
                                                                                                          Schedule HH
                         UNITED STATES DEPARTMENT OF THE INTERIOR (DOI)
                       UNITED STATES DEPARTMENT OF TRANSPORTATION (DOT)
                             Variance Exceeding Two Percent – Option B Life Insurance –
                                    Calculated Amount Versus RITS Submission


                                                                                                          Explanation
                                                                                                         (see Exhibit I,
                                                                    Payroll            Withholdings        procedure
                      Bureau or office                              period              difference            6.d.)
            DOI – Office of Inspector General                       200918                   3.95%             a
 DOT – Research and Innovative Technology Administration            201008                   5.02              b
a DOI-NBC management determined that the difference noted was due to employees who exceed the Grade
  15 Step 10 level, which results in pay being limited to the Grade 15 Step 10 maximum pay.
b DOI-NBC management determined that the difference noted was due to employees whose life insurance is
  prorated because they work a part-time schedule.


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                         50
                                                                                                 Schedule II
                   UNITED STATES DEPARTMENT OF THE INTERIOR (DOI)
                 UNITED STATES DEPARTMENT OF TRANSPORTATION (DOT)
                NATIONAL AERONAUTIC AND SPACE ADMINISTRATION (NASA)
                        SOCIAL SECURITY ADMINISTRATION (SSA)
                       Variance Exceeding Two Percent – Option C Life Insurance –
                              Calculated Amount Versus RITS Submission


                                                                                            Explanation
                                                                                           (see Exhibit I,
                                                        Payroll         Withholdings         procedure
            Agency or bureau/office                     period           Difference             6.d.)
        DOI – Bureau of Indian Affairs                  200918                 (7.31)%              a
     DOT – Federal Highway Administration               200918                  7.70%               b
                    NASA                                200918                  2.08                b
                    NASA                                201005                  4.09                b
                     SSA                                200918                  2.12                b
                     SSA                                201008                  2.83                b
a DOI-NBC management determined that the difference noted was due to contract educators that have
  the 12 months of deductions taken in nine months.
b DOI-NBC management determined that the differences noted were due to retroactive adjustments
  processed.


See accompanying independent accountants’ report on applying agreed-upon procedures.




                                                   51
                           United States Department of the Interior
                                          NATIONAL BUSINESS CENTER
                                              Washington, DC 20240




                                                  September 10,2010


To:         KPMG LLP

From:       U.S. Department of the Interior - National Business Center

Subject:    Agreed-Upon Procedures Report

KPMG has performed procedures in connection with an engagement to apply agreed-upon
procedures, which were agreed to by the Office of Inspector General and the Chief Financial Officer
of the U.S. Office of Personnel Management (OPM). Those procedures were conducted solely to
assist OPM in evaluating the reliability of the employee withholdings and employer contributions
reported in the United States Department of the Interior (DOI), United States Department of
Education's (ED), United States Department of Transportation's (DOT), National Aeronautics and
Space Administration's (NASA), Nuclear Regulatory Commission's (NRC), National Science
Foundation's (NSF), and Social Security Administration's (SSA) Reports of Withholdings and
Contributions for Retirement, Health Benefits, and Life Insurance for the payroll periods ended
August 29, 2009, February 27, 2010, and April 10, 2010, and for the Semiannual Headcount Reports
as of August 29, 2009, and February 27, 2010 (hereinafter referred to as the OPM data submissions).
These procedures were intended to validate the accuracy of the data either by comparison with other
Federal Personnel and Payroll System reports or by applying calculations to infer the reasonableness
of results. While many steps resulted in no variances, some variances did exist.

Based on the variances noted during the review of the Report of Withholdings and Contributions for
Health Benefits, Life Insurance, and Retirement (SF-2812) and the Semiannual Headcount Reports
we have prepared the attached explanations. OPM's formulas for reasonable results and the
comparison of the reports identified variances that are readily explained and supported as related to
specific programs or routine adjustments.

Please feel free to contact Trina Crosser at 303-969-7372 if you have any questions.

                                                  Sincerely,




                                                        illiams,
                                                                     \s
                                - _ -^—
                                                    ifnan Resources Directorate
Enclosure

                                    TAKE PRIDED
Schedule   Step   Agency      ID       Explanation
   A       la.    NSF - FEGLI 091 8    Differences noted were due to differences in
                  Basic                calculations. Per the OPM agreed-upon procedures,
                                       KPMG based its calculations on annualized bi-weekly
                                       wages. A more precise calculation should be based
                                       on annual salary and tour of duty.
   A       1.a.   NSF -- FEGLI 0918    Differences noted were due to differences in
                  Gov't                calculations. Per the OPM agreed-upon procedures,
                                       KPMG based its calculations on annualized bi-weekly
                                       wages. A more precise calculation should be based
                                       on annual salary and tour of duty.
   B       1.b.   NSF -- FEGLI 0918    Differences noted were due to differences in
                  Basic                calculations. Per the OPM agreed-upon procedures,
                                       KPMG based its calculations on annualized bi-weekly
                                       wages. A more precise calculation should be based
                                       on annual salary and tour of duty.
   B       1.b.   NSF • - FEGLI 0918   Differences noted were due to differences in
                  Gov't                calculations. Per the OPM agreed-upon procedures,
                                       KPMG based its calculations on annualized bi-weekly
                                       wages. A more precise calculation should be based
                                       on annual salary and tour of duty.
   EE      6.b.   DOI - BIA     0918   Differences noted were due to retroactive
                                       adjustments processed, contract educators that have
                                       the 12 months of deductions taken in nine months,
                                       inclusion for the total withholding and contribution and
                                       number of enrolled for temporary employees, and
                                       cutback/forced deduction causing readjustment to
                                       count of contract educators.
   EE      6.b.   DOI - MMS     0918   Differences noted relate to retroactive adjustments
                                       processed.
   EE      6.b.   DOI - FWS     1005   Differences noted relate to retroactive adjustments
                                       processed.
   EE      6.b.   DOI - SOS     1005   Differences noted relate to retroactive adjustments
                                       processed.
   EE      6.b.   DOI - BLM     1008   Differences noted relate to retroactive adjustments
                                       processed.
   EE      6.b.   DOI - NFS     1008   Differences noted relate to retroactive adjustments
                                       processed.
   EE      6.b.   DOI - USGS    1008   Differences noted relate to retroactive adjustments
                                       processed.

   EE      6.b.   ED            1008   Differences   noted relate to retroactive adjustments
                                       processed.
   EE      6.b.   DOT - FAA     0918   Differences   noted relate to retroactive adjustments
                                       processed.
   EE      6.b.   DOT - FHWA    0918   Differences   noted relate to retroactive adjustments
                                       processed.
  EE       6.b.   DOT - FMCSA   1005   Differences   noted relate to retroactive adjustments
                                       processed.
   EE      6.b.   NASA          0918   Differences   noted relate to retroactive adjustments
                                       processed.
   EE      6.b.   NRC           0918   Differences   noted relate to retroactive adjustments
Schedule   Step   Agency            ID     Explanation
                                           processed.
   EE      6.b.   SSA               0918   Differences noted relate to retroactive adjustments
                                           processed.
   EE      6.b.   SSA               1005   Differences noted relate to retroactive adjustments
                                           processed.
   EE      6.b.   SSA               1008   Differences noted relate to retroactive adjustments
                                           processed.
   FF      6.c.   DOT - OIG -       1005   Differences noted were due to differences in
                  Employer                 calculations. Per the OPM agreed-upon procedures,
                                           KPMG based its calculations on annualized bi-weekly
                                           wages. A more precise calculation should be based
                                           on annual salary and tour of duty.
  GG       6.d.   DOI • BIA     •   0918   Differences noted relate to contract educators that
                  Option A                 have the 12 months of deductions taken in nine
                                           months.
    II     6.d.   DOI     BIA       0918   Differences noted relate to contract educators that
                  Option C                 have the 12 months of deductions taken in nine
                                           months.
   HH      6.d.   DOI - OIG -       0918   Difference noted was due to employees who exceed
                  Option B                 the Grade 15 Step 10 level, which results in pay
                                           being limited to the Grade 15 Step 10 maximum pay.
   HH      6.d.   DOT - RITA -      1008   Differences noted were due to the calculation
                  Option B                 required for part time employees.
    II     6.d.   DOT - FHWA        0918   Differences     noted were   due    to   retroactive
                  - Option C               adjustments   processed.
   GG      6.d.   NASA - HQR        1005   Differences     noted were   due    to   retroactive
                  - Option A               adjustments   processed.
    II     6.d.   NASA -- MFC       0918   Differences     noted were   due    to   retroactive
                  - Option C               adjustments   processed.
   II      6.d.   NASA -- HQR       1005   Differences     noted were   due    to   retroactive
                  - Option C               adjustments   processed.

    II     6.d.   SSA - Option      0918   Differences noted were       due    to   retroactive
                  C                        adjustments processed.
    II     6.d.   SSA - Option C    1008   Differences   noted were     due    to   retroactive
                                           adjustments processed.
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
